No:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
KAVORIS CLAYTON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I certify that on this 13th day of May, 2021, in accordance with SUP. CT. R. 29, copies of
the (1) Petition for Writ of Certiorari, (2) Motion for Leave to Proceed In Forma Pauperis, (3)
Certificate of Service, and (4) Declaration Verifying Timely Filing, were served by U.S. mail upon
the Solicitor General of the United States, Room 5614, Department of Justice, 950 Pennsylvania
Avenue, N.W., Washington, D.C. 20530-0001.
MICHAEL CARUSO
Federal Public Defender

Fort Lauderdale, Florida
May 13, 2021

By:

Timothy Day
Assistant Federal Public Defender
One East Broward Boulevard, Suite 1100
Fort Lauderdale, Florida 33301-1842
Telephone No. (954) 356-7436

